                                             TABLE OF CONTENTS


Section                                                                                                              Page


ACRONYMS AND ABBREVIATIONS ............................................................................. ii

EXECUTIVE SUMMARY................................................................................................. 1

BACKGROUND .............................................................................................................. 3

OBJECTIVES, SCOPE AND METHODOLOGY ............................................................ 11

RESULTS IN DETAIL.................................................................................................... 14

         A. Why El Paso’s Federal Credit Union Failed ................................................... 14

         B. NCUA’s Supervision of El Paso’s Federal Credit Union ................................. 21

OBSERVATIONS AND RECOMMENDATIONS

         A. Observations .................................................................................................. 28

         B. Recommendations ......................................................................................... 30

APPENDIX A: NCUA Management Comments ............................................................ 33




                                                                                                                             i
ACRONYMS AND ABBREVIATIONS

ACH             Automated Clearing House
AEP             Annual Examination Scheduling Program
AIRES           Automated Integrated Regulatory Examination System
AMAC            Asset Management Assistance Center
ARDO            Associate Regional Director for Operations
BSA             Bank Secrecy Act
Call Reports    NCUA 5300 Call Reports
CAMEL           [C]apital Adequacy, [A]sset Quality, [M]anagement,
                [E]arnings, and [L]iquidity/Asset-Liability Management.
CPA             Certified Public Accountant
Credit Union    El Paso’s Federal Credit Union
DOR             Document of Resolution
DSA             Division of Special Actions
DSA Director    Director, Division of Special Actions
EIC             Examiner-in-Charge
EPFCU           El Paso’s Federal Credit Union
FCU Act         Federal Credit Union Act
FOM             Field of Membership
FPR             Financial Performance Report
FRB             Federal Reserve Bank
LUA             Letter of Understanding and Agreement
MLR             Material Loss Review
NCUA            National Credit Union Administration
NCUSIF          National Credit Union Share Insurance Fund
OIG             Office of Inspector General
RD              Region IV Regional Director
RFE             Risk-Focused Examination
SE              Supervisory Examiner
Teacher’s       El Paso Teacher’s Federal Credit Union
WCC             Work Classification Code




                                                                          ii
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



        above that of peers. In addition, Credit Union senior management displayed
        a lack of competence and training appropriate to their position.

    •   Internal Control and Record Keeping Deficiencies
        NCUA examiners and the external CPA firm routinely reported poor internal
        controls, record keeping errors, and a lack of segregation of duties in critical
        areas. Specific recurring issues related to errors in Call Reports, cash, and
        bank reconciliations were not identified by examiners as potential fraud risk
        indicators.

    •   Board Oversight and Governance Issues
        Interviewees noted that examiners relied on the Board of Directors and
        Supervisory Committee to establish segregation of duties. This is consistent
        with our review of working papers. However, working papers revealed that
        members of both groups were financially unsophisticated. Review of
        EPFCU’s Board minutes showed that neither group provided direction to
        management or required follow-up on findings from examiners or the external
        CPA firm.

We concluded that these factors created an environment where


We determined NCUA could have mitigated the loss to the NCUSIF had they been
more aggressive in identifying issues with excessive fee income, addressing root
issues with internal controls and record keeping at the Credit Union, and identified
and followed up on potential fraud risk factors.

As a result of our review, we are making four observations and three
recommendations to NCUA management related to identifying and responding to
fraud risks, revising the Red Flag Questionnaire, and third party confirmation of cash
account balances.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




                                                                                           2
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the numbers
to determine the significance of the supporting ratios and trends. Furthermore, the
NCUA requires examiners to determine whether material negative trends exist,
ascertain the action needed to reverse unfavorable trends, and formulate, with credit
union management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program
In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include reviewing off-site monitoring tools and
risk evaluation reports as well as on-site work. The RFE process includes reviewing
seven categories of risk: Credit, Interest Rate, Liquidity, Transaction, Compliance,
Strategic, and Reputation. Examination planning tasks may include: (a) reviewing
the prior examination report to identify the credit union’s highest risk areas and areas
that require examiner follow-up; and (b) analyzing Call Reports as well as the risks
detected in the credit union’s operations and in management’s demonstrated ability
to manage those risks. A credit union’s risk profile may change between
examinations. Therefore, the supervision process encourages the examiner to
identify those changes in profile through:

    •    Review of quarterly Financial Performance, Risk, and Call Reports;

    •    Communication with credit union staff; and

    •    Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the Annual Examination Scheduling
Program (AEP). 10 NCUA indicated these changes were necessary due to adverse

9
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the Credit Union’s current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.
10
   The AEP requires either an examination or a material on-site supervision contact within a 10 to 14 month
timeframe based on risk-based scheduling availability. The minimum and maximum time between the
completion dates of one examination to the completion date of the next examination is 8 months and 23 months,
respectively.


                                                                                                               10
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



economic conditions and distress in the nation’s entire financial structure, which
placed credit unions at greater risk of loss. The NCUA stated that the Annual
Program would provide more timely relevant qualitative and quantitative data to
recognize any sudden turn in a credit union’s performance.

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material
loss review when the NCUSIF has incurred a material loss. 11

The objectives of the MLR were to:

     1. Determine the cause(s) of the Credit Union’s failure and the resulting loss to
        the NCUSIF;

     2. Assess the NCUA’s supervision of the institution, including implementation of
        the Prompt Corrective Action requirements of Section 208 of the FCU Act;
        and

     3. Make appropriate observations and/or recommendations to prevent future
        losses.

To accomplish our review, we performed fieldwork at the NCUA’s Region IV office in
Austin, Texas. The scope of this review covered the period from January 2006
through liquidation in September 2012.

To determine the cause(s) of EPFCU’s failure and assess the adequacy of NCUA’s
supervision, we:

     •   Completed the Risk Assessment, which included a review of the Examination
         Overviews as well as other risk considerations, including consideration of
         minimum scope requirements for examiners.

     •   Prepared a chronology and summary table of regulatory examinations, which
         include exam date, regulator, CAMEL rating, supervisory actions, and
         significant examiner comments.




11
  The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.


                                                                                                                 11
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



our audit objective. We believe the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The scope of this audit included an analysis of EPFCU from January 2006 to
September 2012, the date of liquidation. Our review also included an assessment of
NCUA regulatory supervision during the same period.




                                                                                13
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



NCUA Region IV provided EPFCU with an Involuntary Notice of Liquidation and
Revocation of Charter at the end of this contact. 17 Table 2 (below) provides
Composite and specific CAMEL ratings for the applicable examinations during the
scope period of our review.

Table 2


                                 NCUA Examination Results for EPFCU**
                                     CAMEL          Capital /
 Examination             Type                                    Asset
                           18        NCUA             Net                    Management        Earnings       Liquidity
 Effective Date                                                  Quality
                                    Composite        Worth
 June 2012                27           5               5            4              5                5             4
 June 2012                10             5              5           4              5                5             4
 March 2012               22             4              2           3              4                4             2
 January 2012             22             4              2           3              4                4             2
 December 2011            22             3              2           3              3                4             2
 September 2011           10             4              2           3              4                4             2
 June 2011                10             2              1           3              2                2             1
 June 2010                10             2              1           2              2                2             2
 March 2009               22             2              1           3              2                2             2
 June 2008                10             2              1           3              2                2             2
 June 2007                10             2              1           3              2                1             2
 March 2007               22             2              1           3              2                1             2
 June 2006                10             2              1           3              2                1             2
**Examination information provided by NCUA’s Region IV.

Failure to Identify Risks Related to Management

Although NCUA examiners did identify some risk factors related to management
integrity, they did not identify excessive fee and other operating income as a function
of average total assets to be an indication of inappropriate transactions, nor did they
identify other irregularities as fraud risk factors.



17
   On September 26, 2012, the NCUA Region IV Director requested authority from the NCUA Board to liquidate
EPFCU involuntarily. NCUA General Counsel concurred with Region IV’s request for liquidation on September
26, 2012, and the E&I concurred on September 27, 2012. The NCUA Board approved the request September
27, 2012. The NCUA Region IV Director presented the Order to the Chairman of the Board on
September 28, 2012.
18
   As previously noted, WCC Type 10 is a regular examination or insurance review of a federally chartered credit
union. Type 22 is an on-site supervision contact of a federally chartered credit union, and a Type 27 is an off-site
supervision contact of a federally chartered credit union.


                                                                                                                22
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



were not aware of these factors until conducting more in-depth examinations in
2012.

Results of interviews indicated a lack of specific training for examiners in detecting
fraud or identifying weaknesses in antifraud controls. 20 Likewise, interviews
revealed no minimum procedures specified to identify risks of fraud or set
mechanism to respond to suspicions of fraud. We also learned during interviews
that examiners believe there are challenges when following up on fraud risk factors
once identified due to scheduling issues.

Failure to Identify Risks Related to Unusual Transactions

Operations of the Credit Union included several unusual transactions; however, our
review of examination working papers indicated examiners failed to identify some of
the unusual transactions until near the end of the Credit Union’s life.

As documented above, examiners failed to note or question excessive fee income.
Other unusual transactions also did not appear to raise alarm. For example,
nonmember shares appeared on the December 2009 Call Report, with $942
thousand reported as having a maturity of 1–3 years. Nonmember shares appear
again on the June 2011, Call Report. However, the Call Reports document no
nonmember shares in the interim. Examiners did not detect the faulty reporting of
these shares until the January 2012 contact (effective). Likewise, the fact that no
clear business purpose existed for these shares did not raise an issue until this
contact.

The Red Flag Questionnaire does not provide for items such as management
sophistication, improper weighting of management skill (i.e. managers that are very
sophisticated surrounded by supporting staff that are not sophisticated), or level of
sophistication for those charged with governance. Likewise, there is no place to
document miscellaneous comments, such as management that either is
misrepresenting their field of membership or is incompetent to the point of
misunderstanding it. Had such fields existed, we believe examiners may have
recognized risks present at the Credit Union at an earlier stage.




20
  NCUA OIG Report #OIG-12-08, “Review of NCUA’s Red Flag Reports,” examined a sample of 25 credit
unions (five each from each NCUA region) where reviews of Call Reports indicated potential high-risk areas.
The report concluded that examiners addressed high-risk areas for 19 of the 25 (76 percent) of the sampled
credit unions. The report ultimately concluded that examiners appropriately completed Red Flag Questionnaires.
However, this report does not negate those findings as this report focuses on qualitative indicators of fraud (e.g.,
management style, senior management lifestyle) rather than the quantitative factors that were the focus of the
other report.


                                                                                                                25
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



reconciliations are a specific area of the Questionnaire. We believe that either
examiners had not performed sufficient work to identify these issues or they did not
consider them a high-risk area.

Overall, we believe these findings indicate that until the June 30, 2011 examination
(effective), examiners did not consider EPFCU’s poor internal control environment to
be a significant fraud risk area despite numerous and repeated findings by both
NCUA examiners and the external CPA firm.

Failure to Identify Risks Related to Board Oversight and Governance

We learned during interviews that segregation of duties at small credit unions is
challenging and that examiners often rely on procedures performed by the
Supervisory Committee and Board of Directors as internal controls. During our
review of examination working papers, primarily the Examination Overviews, we
found that this was the case at EPFCU. However, these examination working
papers were silent regarding examiners’ attempt to document problems with relying
on the Supervisory Committee and the Board as internal controls or that other issues
related to these institutions constituted a fraud risk.

We also learned during interviews that management and the Board had a
relationship that was very close due to the duration of their relationship (since the
1980s). In addition, during the September 30, 2011 examination (effective), an
individual who had been an examiner of the Credit Union for several years prior to
his retirement became a member of the Board. However, we found no evidence in
the working papers, outside of the June 2012 examination, to document this very
tight relationship. Likewise, the Red Flag Questionnaire makes no mention that the
relationship between management and those charged with governance as a
potential risk factor.

Finally, our review of EPFCU’s Board minutes showed that the Treasurer’s reports
did not match the Board packets. The minutes also revealed that the Board and
Supervisory Committee failed to discuss important issues, including findings
identified by examiners and the external CPA firm, direction by the Board to
management, or nonmember shares. Examiners appear to have reviewed the
minutes as recommended by the NCUA Examiner’s Guide, which notes the
following:

        [M]inutes of board and committee meetings are a primary source of
        information by which examiners evaluate a board and its actions.

However, our review of the examiner working papers revealed examiners did not
document any of these missing discussion items as significant risk factors, e.g., by
escalating the issues beyond an examiner finding.

                                                                                    27
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



OBSERVATIONS AND RECOMMENDATIONS

Once examiners detected the suspicious activity, Region IV supervisors and officials
responded aggressively. Examination frequency and total contact hours increased
starting in 2011 with an approximate two-fold increase from 2010 to 2011 and an
approximate three-fold increase from 2011 to 2012. Additionally, the Region IV RD
issued a memo to field staff in October 2012 specifying steps to detect fraud more
quickly and formed a fraud project team to focus on fraud detection and investigation
procedures. These actions are complementary with observations and
recommendations listed below.

A. Observations

Important observations from the failure of EPFCU include:

     •   Results of examinations showed consistent and recurrent issues with
         accounting and record keeping. Management would clear findings only to
         have them recur in subsequent examinations indicating that the root of the
         problem continued to persist. Examiners should attempt to identify root
         issues and not clear findings or DOR items until management has corrected
         issues in a manner that provides lasting results.

     •   Segregation of duties is difficult for management to achieve at small credit
         unions, and often examiners must rely on the Board of Directors and
         Supervisory Committee as internal controls. We determined that those
         charged with governance at EPFCU were ineffective in providing oversight.
         NCUA final rule 701.4, effective July 21, 2011, 23 clarifies the duties of
         directors and provides a minimum timeframe for which directors must gain
         appropriate familiarity with basic finance and accounting practice. Final rule
         701.4 came into effect near the end of EPFCU’s existence and therefore we
         could not evaluate its effect on EPFCU. We believe NCUA management
         should monitor the effectiveness of NCUA final rule 701.4 to determine
         whether the rule is increasing the financial sophistication of directors. This is
         paramount at small credit unions where the Board and Supervisory
         Committee often serve as a vital internal control.



23
  NCUA final rule 701.4, “General Authorities and Duties of Federal Credit Union Directors,” effective July 27,
2011, was communicated to Federal credit unions in NCUA Letter to Federal Credit Unions, Number 11-FCU-02,
dated February 2011. Per the final rule, “At the time of election or appointment, or within a reasonable time
thereafter, not to exceed six months, have at least a working familiarity with basic finance and accounting
practices, including the ability to read and understand the Federal credit union's balance sheet and income
statement and to ask, as appropriate, substantive questions of management and the internal and external
auditors.”


                                                                                                            28
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



     •   Examiners relied on the external CPA to act as an important internal control;
         however, the CPA firm noted a considerable number of issues with each
         report on procedures performed. NCUA Rules and Regulations provide that
         examiners can require a full opinion audit of a credit union when serious and
         persistent record keeping deficiencies exist. We believe an opinion audit
         would have resulted in more detailed work than those performed as part of
         the agreed-upon procedures employed during the period under scope. Under
         an opinion audit engagement, the external CPA would have performed
         techniques such as analytical procedures over expense and fee income
         accounts, tests of internal controls, and third party confirmation of material
         accounts or equivalent procedures. In addition, the external CPA firm would
         have employed certain procedures designed to detect fraud. 24 While it is
         impossible to conclude that an opinion audit would have detected the
         inappropriate activity that resulted in the failure of EPFCU, we believe that
         had examiners exercised their option to require EPFCU to obtain a full
         opinion audit, it would have increased the probability of detecting improper
         transactions.

     •   During the final year of the Credit Union’s life, an NCUA examiner who had
         recently retired and formerly served as the EIC for EPFCU joined the
         Supervisory Committee. Several interviewees mentioned that having the
         former examiner on the Supervisory Committee was an asset as he had
         valuable experience and acted as a knowledgeable liaison between the
         NCUA and EPFCU. We found no evidence linking the retired examiner to the
         failure of EPFCU, and determined his appointment complied with the 12-
         month waiting period required by Part 796 25 of the NCUA Rules and
         Regulations for federally insured credit unions. However, given that the
         failure of the Credit Union related to suspicious activity that may have been
         occurring while the examiner was the EIC assigned to EPFCU, to an outside
         observer, the appointment of the examiner to the Supervisory Committee
         presents the appearance of a possible conflict of interest. We suggest the
         NCUA remain aware of the potential risk to the integrity of NCUA's
         supervisory program in having former NCUA employees join the Supervisory

24
   Under AU Section 316 of the AICPA Professional Standards, Consideration of Fraud in a Financial Statement
Audit, requires that the audit team perform certain procedures as part of an opinion audit, such as holding a
discussion among engagement personnel regarding the risk of material misstatement due to fraud, inquiring of
management and others within the entity about the risks of fraud, considering results of analytical procedures,
considering fraud risk factors, and considering certain other information. AU Section 316 also specifies that,
among other tests, auditors should design procedures to test the appropriateness of journal entries recorded to
the general ledger, and gain an understanding of the rationale for transactions outside the normal course of
business of the entity or the industry, and whether that rationale (or lack thereof) suggests that the transactions
may have been entered into to engage in fraudulent financial reporting or conceal misappropriation of assets.
25
   12 U.S.C. 1786(w).




                                                                                                                29
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



        Committee or Board of Directors of any credit union in which they have
        previously examined.

B. Recommendations

Based on our review, we are making the following three recommendations.

We recommend NCUA management:

    1. Implement a more comprehensive strategy for identifying and responding to
       fraud risk triggers. Areas to address include:

             a. Implementing training programs to educate examiners on identifying
                fraud risk factors and understanding controls to prevent and detect
                fraud.

             b. Developing specific examination procedures to identify fraud risk
                factors. At a minimum, NCUA management should identify procedures
                examiners should take when a lack of segregation of duties exists, for
                example, ensuring examiners conduct interviews with staff,
                management, and representatives of the Board of Directors and
                Supervisory Committee.

             c. Building resources to respond to fraud risk factors efficiently. We
                agree with suggestions provided by Region IV management, to include
                developing fraud teams at the national or regional level, identifying a
                list of vendors approved to perform such procedures on an as-needed
                basis, requiring credit unions themselves to have forensic procedures
                performed when deemed appropriate, or an appropriate combination of
                these responses.

Management Response

Management agreed with the recommendation. Management currently has
several training programs available to address fraud recognition and detection
and plans to require all examiners complete recordkeeping training through the
NCUA LearnCenter over the next twelve months; will encourage all regions to
discuss recent fraud cases and include fraud detection training as part of their
multi-group meeting topics on a regular basis; and is working with the regional
offices to finalize the Small Credit Union Exam Program, which will include fraud
detection scope procedures. In addition, management indicated they are
working with Region IV to develop a fraud questionnaire. Finally, management is
building resources to respond to fraud risk factors by planning to develop and
maintain a list of Certified Fraud Examiners within NCUA’s staff as well as a

                                                                                      30
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



vendor resource list of those able to assist with forensic procedures.
Management’s entire response is provided in Appendix A.

OIG Response

We concur with management’s actions taken and planned.


    2. Revise the Red Flag Questionnaire to capture emerging trends in credit union
       fraud as well as those that persist in the industry. Areas to consider include:

             a. Expanding the Red Flag Questionnaire to include a drill-down
                approach to fraud risk, with common risk areas leading to more
                specific risks.

             b. Developing specific examination procedures to respond to identified
                fraud risks in order to provide examiners with appropriate tools and
                techniques.

Management Response

Management agreed with the premise of the recommendation; however,
management did not agree with the OIG’s recommended method to use the Red
Flag Questionnaire as the primary tool. Instead, as previously mentioned in
Recommendation 1 above, management plans to develop a separate questionnaire
that will provide examination procedures for use when fraud is suspected. In
addition, management is finalizing the aforementioned Small Credit Union Exam
Program, which will include fraud detection scope procedures that can be used
during any examination when fraud is suspected or risks are present.

OIG Response

We concur with management’s planned actions.


    3. Current procedures allow examiners to rely on bank statements provided by
       Credit Union personnel as primary evidence for account balances. Given the
       importance of this information and its susceptibility to fraud, particularly in
       cases where internal controls are weak, certain account balances should be
       independently verified. Therefore, we recommend NCUA management:

        Update policies and procedures to require third party confirmations be
        obtained regularly for all accounts where the balance or activity is significant
        to the operations of the credit union. In addition, NCUA management should

                                                                                       31
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



        require this as part of agreed-upon-procedures conducted by external CPA
        firms.

Management Response

Management agreed with the recommendation and plans to include a step in the
fraud detection scope of the Small Credit Union Exam Program related to third-party
confirmations. In addition, during the next revision of the Supervisory Committee
Guide, management plans to add guidelines requiring third-party confirmations as
part of the non-opinion annual supervisory committee audit.

OIG Response

We concur with management’s planned actions.




                                                                                   32
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09



APPENDIX A: NCUA Management Comments




                                                        33
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09




                                                        34
Material Loss Review – El Paso’s Federal Credit Union
OIG-13-09




                                                        35
